SUPREME COURT OF NEW JERSEY
C-636 September Term 2018
. 081973

Cora Kerton,

Plaintiff-Petitioner, F l L E D
MAR 08 2019

( Mather Cube. ORDER

Vy

Society Hill at Droyers Point
Condominium Association, and
Landscape Maintenance Services,

Defendants-Respondents.

A petition for certification of the judgment in A-005428-16
having been submitted to this Court, and the Court having considered the
same;

It is ORDERED that the petition for certification is denied, with costs.

WITNESS, the Honorable Jaynee LaVecchia, Presiding Justice, at

Bhsteg ae

CLERK OF THE SUPREME COURT

Trenton, this 5th day of March, 2019.

 

 

 

 
